November 19, 2019
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington D.C. 20543
Re:

George Q. Ricks v. Idaho Contractors Board, et al., No. 19-66

Dear Mr. Harris:
I represent the Petitioner in the above-captioned case. The petition for a writ of
certiorari was docketed on July 12, 2019, and the response was filed on November 6,
2019. By this letter, Petitioner waives the 14-day waiting period for a reply brief
under Rule 15.5 and asks that the briefing be distributed on the next scheduled
distribution date—November 20, 2019—for consideration at the December 6th
conference.
Respectfully submitted,

Eric Baxter
Counsel of Record for Petitioner

cc:

Leslie Marie Goemaere Hayes
Counsel of Record for Respondent
Idaho Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
(208) 334-4538
leslie.hayes@ag.idaho.gov

